ns
I

C@OCKLE

- E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923,

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-872

SHANE DAVIS,
Petitioner,
vs.
MIKE CARROLL, WILEEN R. WEAVER,
and PAULINE RILEY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7675 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A Chk
i RENEE J, GOSS 9. Z

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40597
